CERTIFICATE OF SERVICE
I, J. Bart DeLone, Chief Deputy Attorney General, do hereby certify that I have
this day served the foregoing opposition, described below as follows:
No. 20-542 & 574
IN THE SUPREME COURT OF THE UNITED STATES,
Republican Party of Pennsylvania, Petitioner v. Kathy Boockvar, in her
official capacity as Secretary of Pennsylvania, et al., Respondents
Joseph B. Scarnati, III, et al., Petitioners v. Pennsylvania Democratic
Party, et al., Respondents
Response in Opposition to Motions to Intervene
Per the Court’s April 15, 2020 Order, by electronic filing and First-Class Mail, postage
prepaid to:
1 COPY TO:

Scott S. Harris, Clerk
UNITED STATES SUPREME COURT
1 First Street, N.E.
Washington, DC 20543-0001

Per the Court’s April 15, 2020 Order, by electronic service to:
John M. Gore, Esquire
JONES DAY
51 Louisiana Avenue, NW
Washington, DC 20001
Counsel for Republican
Pennsylvania

Party

of

Donald B. Verrilli Jr., Esquire
MUNGER, TOLLES & OLSON LLP
601 Massachusetts Avenue, NW
Suite 500E
Washington, DC 20001-5369
Counsel for Pennsylvania Democratic
Party, et al.
Jay Alan Sekulow, Esquire
CONSTITUTIONAL
LITIGATION
AND
ADVOCACY GROUP, P.C.
1700 Pennsylvania Ave. NW, Suite 200

Washington, DC 20006
Counsel for Donald J. Trump for
President, Inc.
Joseph M. Cosgrove, Esquire
SELINGO GUAGLIARDO LLC
345 Market Street
Kingston, PA 18704-0000
Counsel for Luzerne County Board of
Elections
Jason Brett Torchinsky
HOLTZMAN
VOGEL
JOSEFIAK
TORCHINSKY PLLC
15405 John Marshall Hwy
Haymarket, VA 20169
Counsel for Joseph B. Scarnati, III, et
al.

s/ J. Bart DeLone
J. Bart DeLone
Chief Deputy Attorney General
OFFICE OF ATTORNEY GENERAL
Appellate Litigation Section
15th Floor, Strawberry Square
Harrisburg, PA 17120
(717) 712-3818
jdelone@attorneygeneral.gov
Dated: November 5, 2020

